Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 RECOVERY AUDIT CONTRACTORS’
      FRAUD REFERRALS




                    Daniel R. Levinson
                     Inspector General

                      February 2010
                     OEI-03-09-00130
     E X E C U T I V E                           S U M M A R Y


                      OBJECTIVES
                      To determine the extent to which:

                      1. recovery audit contractors (RAC) referred cases of potential fraud to
                         the Centers for Medicare & Medicaid Services (CMS) during the
                         demonstration project, and

                      2. CMS provided training to RACs regarding fraud identification and
                         referral during the demonstration project and in the permanent
                         program.


                      BACKGROUND
                      CMS contracts with RACs to identify improper payments of Medicare
                      Part A and Part B claims. RACs conduct postpayment reviews to
                      identify overpayments and underpayments and recoup any
                      overpayments they identify. RACs receive payment based on the
                      amount of improper payments identified.

                      CMS conducted a 3-year RAC demonstration project from
                      March 2005 through March 2008 that was designed to (1) detect and
                      correct past improper payments in the Medicare fee-for-service program
                      and (2) provide information to CMS and to the Medicare claims
                      processing contractors that could help protect the Medicare trust funds
                      by preventing future improper payments. The demonstration covered
                      California, Arizona, Florida, South Carolina, New York, and
                      Massachusetts. Three RACs participated in the demonstration project
                      and identified more than $1.03 billion in Medicare improper payments.
                      After the demonstration period, CMS awarded contracts to four
                      companies that will serve as RACs in the permanent program.

                      RACs are not responsible for reviewing claims for fraudulent activity;
                      however, they are responsible for referring to CMS any instances of
                      potential fraud that are identified during their reviews. This is the first
                      indepth study of the RACs’ role in referring cases of potential fraud.


                      FINDINGS
                      Between 2005 and 2008, RACs referred two cases of potential fraud
                      to CMS. Only one RAC reported referring two cases of potential fraud
                      involving specific providers to CMS during the 3-year demonstration
                      project. However, CMS reported that it received no specific provider
                      referrals from RACs during the demonstration project. While it did not

O EI -03 -09 -00130   RECOVERY AUDIT CONTRACTORS’ FRAUD REFERRALS                             i
E X E C U T I V E                 S U M M A R Y


                       make formal referrals to CMS, another RAC notified CMS of numerous
                       claims it identified involving improper payments. The third RAC did
                       not refer any cases of potential fraud to CMS during the demonstration
                       project.
                       During the demonstration project, CMS did not provide any formal
                       training to RACs regarding the identification and referral of potential
                       fraud; however, CMS did provide the permanent RACs with a
                       presentation about fraud. CMS did not provide RACs in the
                       demonstration with formal training regarding the identification and
                       referral of potential fraud. CMS did provide the permanent RACs with
                       a presentation about fraud, which discussed the need for the RACs to be
                       knowledgeable about fraud in Medicare, the definition of fraud, and
                       examples of potential Medicare fraud. CMS is planning to provide the
                       permanent RACs with further education and training on the
                       identification of potential fraud. In addition, two of the three RACs
                       reported providing informal training to their staff regarding the
                       identification and referral of potential fraud.


                       RECOMMENDATIONS
                       During the 3-year demonstration project, RACs identified over $1 billion
                       in improper payments, yet referred only two cases of potential fraud to
                       CMS. Because RACs do not receive their contingency fees for cases they
                       refer that are determined to be fraud, there may be a disincentive for
                       RACs to refer cases of potential fraud.

                       RACs are required to refer any cases of potential fraud that they
                       identify; however, they must be able to identify fraud to refer it. Having
                       a RAC staff that is knowledgeable about fraud and trained to identify
                       fraud will increase awareness and detection of potential fraud during
                       the claims review process. CMS did not provide RACs in the
                       demonstration project with formal training on how to identify fraud.
                       However, CMS did provide the permanent RACs with a presentation
                       about fraud.

                       Therefore, we recommend that CMS:
                       Conduct followup to determine the outcomes of the two referrals
                       made during the demonstration project.
                       Implement a database system to track fraud referrals.
                       Require RACs to receive mandatory training on the identification
                       and referral of fraud.

 O EI -03 -09 -00130   RECOVERY AUDIT CONTRACTORS’ FRAUD REFERRALS                           ii
E X E C U T I V E                 S U M M A R Y


                       AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                       RESPONSE
                       CMS concurred with all three of our recommendations. In regard to our
                       first recommendation, CMS stated that it researched the two cases
                       identified by the RAC for potential referral and determined they should
                       be referred to the Office of Inspector General (OIG) for further
                       development. CMS is in the process of forwarding the two cases to OIG.
                       OIG will review these cases and determine what actions need to be
                       taken.

                       CMS concurred with our second recommendation and stated that it is in
                       the process of developing a system to track the RAC claims review
                       process.

                       Finally, in response to our third recommendation, CMS stated that it
                       has already provided two training sessions to the RACs and is in
                       discussion with OIG and the Department of Justice on additional
                       training. The OIG training session was scheduled for January 2010.




 O EI -03 -09 -00130   RECOVERY AUDIT CONTRACTORS’ FRAUD REFERRALS                        iii
   T A B L E             O F            C O N T E N T S



         EXECUTIVE SUMMARY..................................i



         INTRODUCTION ......................................... 1



         FINDINGS ................................................ 9
                    Between 2005 and 2008, RACs referred two cases of
                    potential fraud to CMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

                    During the demonstration project, CMS did not provide any formal
                    training to RACs regarding the identification and referral of
                    potential fraud; however, CMS did provide the permanent RACs
                    with a presentation about fraud. . . . . . . . . . . . . . . . . . . . . . . . . . . . 9



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
                    Agency Comments and Office of Inspector General Response . . . 12


         A P P E N D I X . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
                    Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
     I N T R O D U C T I O N


                      OBJECTIVES
                      To determine the extent to which:

                      1. recovery audit contractors (RAC) referred cases of potential fraud to
                         the Centers for Medicare & Medicaid Services (CMS) during the
                         demonstration project, and

                      2. CMS provided training to RACs regarding fraud identification and
                         referral during the demonstration project and in the permanent
                         program.


                      BACKGROUND
                      The Medicare Prescription Drug, Improvement, and Modernization Act
                      of 2003 directed the Secretary of the U.S. Department of Health and
                      Human Services (the Secretary) to undertake a demonstration project to
                      assess the use of RACs under the Medicare Integrity Program in
                      (1) identifying underpayments and overpayments, and (2) recouping
                      overpayments (for services for which payment was made under Part A
                      or Part B of Title XVIII of the Social Security Act). 1 The demonstration
                      project lasted 3 years (March 2005 through March 2008) and provided
                      CMS with information about the feasibility and merits of applying
                      recovery audit principles and methods to the Medicare program.

                      The Tax Relief and Health Care Act of 2006 directed the Secretary to
                      expand the RAC program nationally by January 2010. 2 In October
                      2008, CMS awarded contracts to four companies that serve as the RACs
                      for the permanent program. At the time of data collection for this
                      report, the permanent RACs were conducting provider outreach and
                      beginning to phase in their review of providers but were not fully
                      operational.

                      RACs are not responsible for reviewing claims for fraudulent activity.
                      CMS contracts with program safeguard contractors (PSC) and Zone
                      Program Integrity Contractors (ZPIC) to perform benefit integrity




                        1 The Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
                      P.L. 108-173, Title III § 306.
                         2 The Tax Relief and Health Care Act of 2006, P.L. 109-432 § 302(a), Social Security Act
                      § 1893(h), 42 U.S.C. § 1395ddd(h).



O EI -03 -09 -00130   RECOVERY AUDIT CONTRACTORS’ FRAUD REFERRALS                                                   1
I N T R O D U C T I O N


                       functions including fraud detection. 3 However, in the course of
                       reviewing claims for improper payments, RACs may come across
                       instances where the overpayment appears to involve fraudulent activity.
                       RACs are responsible for referring these instances of potential fraud to
                       CMS. 4
                       The RAC program is unique because RACs operate on a contingency fee
                       basis, unlike any other Medicare contractor. While RACs are not
                       responsible for identifying fraud, they are responsible for referring any
                       cases of potential fraud to CMS. RACs do not receive contingency fees
                       for these cases when they are determined to be fraud. Thus, there may
                       be a disincentive for RACs to refer cases of potential fraud.
                       This is the first indepth study of the RACs’ role in referring cases of
                       potential fraud. Specifically, this study examined the role of the
                       demonstration RACs in referring cases of potential fraud. It also
                       focused on training that the demonstration RACs and the permanent
                       RACs received from CMS regarding the identification and referral of
                       potential fraud.
                       Recovery Audit Contractor Demonstration Project
                       The 3-year RAC demonstration project was conducted from March 2005
                       through March 2008 and was designed to (1) detect and correct past
                       improper payments in the Medicare fee-for-service program, and
                       (2) provide information to CMS and to the Medicare claims processing
                       contractors that could help protect the Medicare trust funds by
                       preventing future improper payments. 5
                       CMS awarded the first RAC contracts in March 2005. Initially, the
                       States with the highest Medicare utilization rates—California, Florida,
                       and New York—were selected for the demonstration. In the summer of
                       2007, CMS expanded the demonstration to Massachusetts, South
                       Carolina, and Arizona. The companies selected for the demonstration
                       were:


                         3 PSCs and ZPICs are CMS’s fraud, waste, and abuse detection contractors. CMS is in
                       the process of transferring PSC functions to the ZPICs and expects all ZPICs to be
                       operational in 2010.
                         4 CMS,   Statement of Work for the Recovery Audit Contractor Program, November 7,
                       2007, p. 24.
                         5 CMS, The Medicare Recovery Audit Contractor (RAC) Program: An Evaluation of the
                       3-Year Demonstration, June 2008, p. 11. Available online at
                       http://www.cms.hhs.gov/RAC/Downloads/RAC%20Evaluation%20Report.pdf. Accessed on
                       February 2, 2009.



 O EI -03 -09 -00130   RECOVERY AUDIT CONTRACTORS’ FRAUD REFERRALS                                             2
I N T R O D U C T I O N


                          PRG-Schultz (California, Arizona 6 ),
                          HealthDataInsights (Florida, South Carolina), and

                          Connolly Consulting (New York, Massachusetts).

                       CMS compensated RACs through contingency fees, which were a
                       percentage of the amount of improper payments RACs corrected.
                       Contingency fees included fees paid to RACs for detecting and collecting
                       overpayments plus the fees paid for detecting and refunding
                       underpayments. CMS and RACs negotiated these contingency fees,
                       which ranged from 18 to 38 percent during the demonstration.

                       RAC responsibilities. CMS tasked RACs with identifying, through
                       postpayment review, Medicare Part A or Part B claims with
                       underpayments or overpayments. 7 Improper payments could include
                       noncovered services, incorrectly coded services, duplicate services, and
                       incorrect payment amounts. For each overpayment identified, RACs were
                       to attempt recoupment.

                       Claims review process. Using claims data from 2001 through 2007, RACs
                       were responsible for identifying claims containing improper payments.
                       RACs used their own proprietary software to perform automated reviews
                       to identify claims that contained improper payments. RACs also
                       conducted more complex medical reviews on claims. In conducting claim
                       reviews, RACs had to comply with Medicare policies, regulations, national
                       coverage determinations, local coverage determinations, and manual
                       instructions.

                       CMS excluded a number of claim types from review by the RACs. These
                       exclusions included:
                          claims for hospice and home health services,

                          payments made to providers under a CMS-conducted
                           demonstration,
                          claims previously reviewed by another Medicare contractor,

                          claims involved in a potential fraud investigation, and




                         6 While contractually Arizona was added to PRG-Schultz’s jurisdiction in July 2007, no
                       Arizona claims were reviewed before the end of the RAC demonstration.
                         7 CMS, Statement of Work for the Recovery Audit Contractors Participating in the
                       Demonstration (Non-Medicare Secondary Payer), No. 40700NMSPB, p. 1.



 O EI -03 -09 -00130   RECOVERY AUDIT CONTRACTORS’ FRAUD REFERRALS                                                3
I N T R O D U C T I O N


                           potentially miscoded physician evaluation and management
                            claims. 8
                       Appeals. Providers were able to appeal RAC overpayment
                       determinations. There are five levels in the Medicare Part A and Part B
                       appeals process: (1) redetermination by a carrier, Fiscal Intermediary
                       (FI), or Medicare Administrative Contractor; (2) reconsideration by a
                       Qualified Independent Contractor; (3) hearing by an Administrative
                       Law Judge; (4) review by the Medicare Appeals Council; and (5) judicial
                       review in the U.S. District Court. 9
                       Appeals affected RACs’ ability to retain contingency fees. Once RACs
                       were notified by CMS of an appeal request, they were required to cease
                       all recovery attempts. CMS required RACs to pay back the contingency
                       fee if the appeal was favorable to the provider at the redetermination
                       level. Subsequent appeals after the redetermination level did not affect
                       the RACs’ ability to retain the contingency fee.

                       RAC Data Warehouse. CMS gave RACs access to the RAC Data
                       Warehouse to facilitate the activities of the RACs, CMS, FIs, carriers,
                       Durable Medical Equipment Regional Carriers (DMERC), Quality
                       Improvement Organizations (QIO), PSCs, and law enforcement
                       agencies. 10 The RAC Data Warehouse was designed for numerous
                       coordinating, tracking, and reporting functions.

                       RACs were prohibited from reviewing claims that had been flagged by
                       other Medicare contractors and law enforcement agencies in the RAC
                       Data Warehouse. Therefore, before beginning any claim reviews, RACs
                       were required to compare their list of claims to be reviewed against the
                       flagged claims in the RAC Data Warehouse. Flagged claims are those
                       that have been previously medically reviewed, settled, or are currently
                       under investigation. Claims can be flagged by CMS, FIs, carriers,
                       DMERCs, QIOs, PSCs, and law enforcement agencies.

                       Potential fraud referrals. Fraud detection was not part of the scope of work
                       for demonstration RACs. However, RACs were responsible for referring
                       claims they determined to be potentially fraudulent to the CMS Project


                         8 CMS, The Medicare Recovery Audit Contractor (RAC) Program: An Evaluation of the
                       3-Year Demonstration, p. 13.
                         9 CMS, Original Medicare (Fee-for-Service) Appeals: Overview. Available online at
                       http://www.cms.hhs.gov/OrgMedFFSAppeals/. Accessed on March 11, 2009.
                           10 CMS,   RAC Data Warehouse User’s Guide, version 3.0, p. 4.



 O EI -03 -09 -00130   RECOVERY AUDIT CONTRACTORS’ FRAUD REFERRALS                                           4
I N T R O D U C T I O N


                       Officer. 11 The CMS Project Officer would then forward the referrals to the
                       Program Integrity Group at CMS for further review and determination to
                       refer to the PSC and/or law enforcement. CMS prohibited RACs from
                       reviewing or taking further action on these claims. Further, RACs could
                       not collect their contingency fee for claims they referred and that CMS
                       determined to be fraud. However, if CMS determined that a referral did
                       not involve potential fraud, the RAC was allowed to proceed with
                       reviewing the claim.

                       Outcome of the demonstration project. During the 3-year demonstration
                       project, RACs identified more than $1.03 billion in Medicare improper
                       payments, 96 percent ($980 million) of which were overpayments collected
                       from providers. The remaining 4 percent ($37.8 million) were
                       underpayments that were repaid to providers. 12 Of the overpayments,
                       85 percent ($828.3 million) were collected from inpatient hospital
                       facilities. 13
                       During the demonstration project, providers appealed 22.5 percent of the
                       RAC overpayment determinations. Overall, 7.6 percent of all overpayment
                       determinations were overturned on appeal. 14
                       The total cost of the demonstration project was $201.3 million—or about
                       20 cents for each dollar collected. 15, 16 CMS paid RACs a total of
                       $187.2 million in fees over the duration of the demonstration. Medicare




                         11 The demonstration project statement of work provides for referrals to be made to
                       PSCs; however, CMS directed demonstration RACs to make fraud referrals to the CMS
                       Project Officer instead. Further, RACs were not given a specific format or method by which
                       to make the referrals to CMS. CMS, Statement of Work for the Recovery Audit Contractors
                       Participating in the Demonstration (Non-Medicare Secondary Payer), p. 14.
                         12 CMS, The Medicare Recovery Audit Contractor (RAC) Program: An Evaluation of the
                       3-Year Demonstration, p. 15.
                         13 Ibid., p. 19.
                         14 CMS, The Medicare   Recovery Audit Contractor (RAC) Program: Update to the
                       Evaluation of the 3-Year Demonstration, January 2009, p. 4. Available online at
                       http://www.cms.hhs.gov/RAC/Downloads/AppealUpdatethrough83108ofRACEvalReport.pdf.
                       Accessed on February 2, 2009.
                         15 CMS, The Medicare Recovery Audit Contractor (RAC) Program: An Evaluation of the
                       3-Year Demonstration, p. 14.
                         16 The demonstration project also included Medicare Secondary Payer (MSP) RACs.
                       These RACs were responsible for identifying and recovering MSP nonbeneficiary Group
                       Health Plan-based overpayments. The total costs provided in this paragraph include MSP
                       RACs. We did not include MSP RACs in our review.



 O EI -03 -09 -00130   RECOVERY AUDIT CONTRACTORS’ FRAUD REFERRALS                                              5
I N T R O D U C T I O N


                       claims processing contractors’ costs were an additional $8.7 million, and
                       other expenses were $5.4 million. 17
                       Recovery Audit Contractor Permanent Program
                       Section 302 of the Tax Relief and Health Care Act of 2006 requires that
                       the RAC program be implemented nationally by 2010. In March 2007,
                       CMS began conducting a full and open competition to award four
                       permanent RAC contracts. 18 Each RAC is responsible for identifying
                       overpayments and underpayments in one of four regional jurisdictions.

                       In October 2008, CMS announced its selection of the following
                       companies as RACs:
                          Region A (Maine, New Hampshire, Vermont, Massachusetts,
                           Rhode Island, New York): Diversified Collection Services (DCS),
                           Inc., of Livermore, California;
                          Region B (Michigan, Indiana, Minnesota): CGI Technologies and
                           Solutions (CGI), Inc., of Fairfax, Virginia;
                          Region C (South Carolina, Florida, Colorado, New Mexico):
                           Connolly Consulting Associates, Inc., of Wilton, Connecticut; and
                          Region D (Montana, Wyoming, North Dakota, South Dakota,
                           Utah, Arizona): HealthDataInsights (HDI), Inc., of Las Vegas,
                           Nevada.

                       Shortly after the RAC selections were announced, two unsuccessful
                       bidders filed protests with the Government Accountability Office (GAO).
                       As a result, CMS was required to impose an automatic stay in the
                       contract work of the four RACs. As required under provisions of the
                       Competition and Contracting Act of 1984, GAO had 100 days to issue its
                       decision in the matter. On February 4, 2009, settlement was reached
                       and the imposed stay was lifted. As a result, PRG-Schultz, Inc., will
                       serve as a subcontractor to DCS, CGI, and HDI in Regions A, B, and D;
                       and Viant Payment Systems, Inc., will serve as a subcontractor to
                       Connolly Consulting in Region C.

                       By the end of 2009, CMS had fully implemented the RAC program and
                       expanded it to all States.


                         17 CMS, The Medicare Recovery Audit Contractor (RAC) Program: An Evaluation of the
                       3-Year Demonstration, p. 3.
                         18 CMS, Recovery Audit Contractors: Overview. Available online at
                       http://www.cms.hhs.gov/RAC/01_Overview.asp#TopOfPage. Accessed on February 9, 2009.



 O EI -03 -09 -00130   RECOVERY AUDIT CONTRACTORS’ FRAUD REFERRALS                                        6
I N T R O D U C T I O N


                       Changes to the RAC program. Based on lessons learned during the
                       demonstration project, several changes were made to improve the RAC
                       program. 19 Changes included the following:
                            RACs must pay back the contingency fee if the claim is overturned
                             at any level of appeal, not just the redetermination level.
                            The look-back period for reviewing claims was reduced from
                             4 years to 3 years, and RACs cannot review any claims prior to
                             October 1, 2007. 20
                            RACs must report identified vulnerabilities monthly to CMS.

                       Potential fraud referrals. CMS made no changes to the fraud referral
                       process for the permanent RACs. RACs must continue to report claims
                       that they determine to be potentially fraudulent to the CMS Project
                       Officer and do not receive their contingency fee for referrals determined to
                       be fraud. As in the demonstration, RACs are allowed to continue
                       reviewing these claims if CMS determines that the claims do not involve
                       potential fraud.
                       Oversight of Recovery Audit Contractors
                       RACs are overseen by CMS’s Division of Recovery Audit Operations,
                       part of the Provider Compliance Group within the Office of Financial
                       Management. Each RAC has a CMS lead Project Officer and one or two
                       co-Project Officers that are assigned to the task order.


                       METHODOLOGY
                       Scope
                       We focused our data collection on the three RACs that participated in
                       the 3-year demonstration project (March 2005 through March 2008).
                       We also collected information from CMS regarding its oversight of the
                       RACs during the demonstration project and permanent program.

                       We did not collect information from the four permanent RACs because
                       they had not begun reviewing claims at the time of this study.




                           19 CMS,
                                 The Medicare Recovery Audit Contractor (RAC) Program: An Evaluation of the
                       3-Year Demonstration, p. 25.
                           20 The look-back period is the amount of time between the medical record request date
                       and the claim payment date (i.e., RACs cannot ask for medical records more than 3 years
                       after a claim was paid).



 O EI -03 -09 -00130   RECOVERY AUDIT CONTRACTORS’ FRAUD REFERRALS                                                 7
I N T R O D U C T I O N


                       Data Collection and Analysis
                       From each of the three demonstration RACs, we requested information
                       regarding each case of potential fraud that was referred to CMS during
                       the demonstration project. The type of information we requested
                       included: provider name, provider identification number, date of
                       referral, to whom the referral was sent, whether acknowledgment of the
                       referral was received, method of sending the referral, type of potential
                       fraud identified, type of claim, and provider type. We also requested all
                       documentation pertaining to each referral. From this information, we
                       determined the number and type of referrals that each RAC made to
                       CMS during the demonstration project.
                       Additionally, we asked RACs to provide us with information about
                       policies and procedures regarding the referral of potential fraud that
                       they had in place during the demonstration. We also asked about
                       training that they received from CMS regarding the identification and
                       referral of cases of potential fraud. We reviewed and summarized RAC
                       responses to each of these questions to determine the extent to which
                       RACs received training from CMS regarding fraud identification and
                       referral during the demonstration project.

                       From CMS, we requested information about the referrals of potential
                       fraud that it received from the RACs during the demonstration project.
                       Specifically, we asked CMS to provide us with the following information
                       for each referral received: provider name, provider identification
                       number, date of referral, name of RAC that sent the referral, whether
                       CMS sent the RAC a confirmation of receipt for the referral, type of
                       claim, whether the referral was forwarded for further review or
                       investigation, and the outcome of the referral. We also requested all
                       documentation pertaining to each referral. We compared this
                       information to the information we received from the RACs.

                       We also asked CMS to provide us with information on its policies and
                       procedures for addressing referrals of potential fraud as well as training
                       that it provided to RACs in identifying and referring cases of potential
                       fraud. We reviewed CMS’s responses to determine the extent to which
                       it provided RACs with training on fraud identification and referral.
                       Standards
                       This study was conducted in accordance with the “Quality Standards for
                       Inspections” approved by the Council of the Inspectors General on
                       Integrity and Efficiency.



 O EI -03 -09 -00130   RECOVERY AUDIT CONTRACTORS’ FRAUD REFERRALS                            8
 F I    N D I
        F I N N DG IS N G S



   Between 2005 and 2008, RACs referred two                    Two cases of potential fraud
             cases of potential fraud to CMS                   involving specific providers were
                                                               referred by RACs to CMS during
                         the 3-year demonstration project. The two cases were referred by one
                         RAC and were sent by letter directly to the CMS Project Officer.
                         However, in response to our information request, CMS reported that it
                         received no specific provider referrals from RACs during the
                         demonstration project. CMS also reported that it did not track the
                         outcomes of referrals it received from RACs.
                         The two referrals involved rehabilitation service providers and both
                         involved suspected alterations of medical records after the services were
                         rendered. According to the RAC referral letters sent to CMS, the RAC
                         had no contact with the providers in reference to the allegations and
                         continued to complete its complex and/or automated, postpayment
                         review of the providers. If CMS had determined that the referrals were
                         potentially fraudulent, the RAC should have ceased its review of these
                         claims.

                         While another RAC did not make any formal fraud referrals to CMS, it
                         indicated that it notified CMS of multiple claims involving millions of
                         dollars in improper payments to physician practices for Intravenous
                         Immune Globulin (IVIG) treatments in Florida. CMS directed the RAC
                         to close down its review of these claims. The RAC reported that CMS
                         then referred these IVIG claims to the PSC and/or law enforcement to
                         develop cases against numerous providers throughout Florida. During
                         this time, CMS decided to exclude claims from physician practices as
                         well as claims from durable medical equipment suppliers in three
                         southern counties of Florida from further RAC review.

                         The third RAC had no potential fraud referrals during the
                         demonstration project.



 During the demonstration project, CMS did not               During the demonstration project,
 provide any formal training to RACs regarding               the RACs were routinely invited
the identification and referral of potential fraud;          by CMS to participate in a
                                                             number of conferences and
however, CMS did provide the permanent RACs
                                                             meetings where fraud issues were
                 with a presentation about fraud
                                                             discussed, but no formal training
                         was provided to the RACs. In response to our information request


   O EI -03 -09 -00130   RECOVERY AUDIT CONTRACTORS’ FRAUD REFERRALS                           9
F I   N D I        N G   S


                         regarding RAC training, CMS stated, “In order to determine if recovery
                         auditors could work in Medicare, CMS purposely did not provide formal
                         training to the RACs. The RACs needed to prove to Medicare and the
                         provider community that they could work in the Medicare environment.
                         Significant CMS intervention would have clouded the result.” 21
                         However, in October 2008, CMS gave a presentation regarding
                         Medicare fraud to the permanent RACs participating in the permanent
                         program. The presentation discussed the definition of fraud, examples
                         of potential Medicare fraud, and the need for the RACs to be
                         knowledgeable about fraud in Medicare.
                         CMS told us it is planning to provide RACs in the permanent program
                         with further education and training on the identification and referral of
                         potential fraud.
                         Although CMS did not provide formal training to the RACs during the
                         demonstration project, two RACs reported providing informal training to
                         their own staff regarding the identification and referral of potential fraud
                         One RAC noted that its Executive Vice President has experience in
                         Medicare fraud as a result of previously working for CMS, where he was
                         responsible for benefit integrity functions. The identification of
                         potential fraud was regularly discussed at staff meetings, improper
                         payment query meetings, and other meetings where the Executive Vice
                         President participated and provided advice and counsel to staff. In
                         addition, this RAC held monthly conference calls with its Project Officer
                         to discuss operational issues, including potential fraud issues.

                         Another RAC reported that auditors were advised to refer cases to
                         upper management when concerns were prompted by questionable
                         billing patterns or the nature of the medical documentation. These
                         concerns resulted in further examination of the claims data, additional
                         medical review, and referrals to CMS.

                         The other RAC did not provide its staff with training regarding the
                         identification or referral of potential fraud.




                             21 Response received on June 22, 2009, from CMS Director for the Division of Recovery

                         Audit Operations and CMS Director for the Division of Benefit Integrity Management
                         Operations in CMS.



 O EI -03 -09 -00130     RECOVERY AUDIT CONTRACTORS’ FRAUD REFERRALS                                                 10
A     R E C O M M E N D A T I O N S
      P P      E N D I X ~ A




                       During the 3-year demonstration project, RACs identified over $1 billion
                       in improper payments. Yet, RACs referred only two cases of potential
                       fraud to CMS during this time. Because RACs do not receive their
                       contingency fees for cases they refer that are determined to be fraud,
                       there may be a disincentive for RACs to refer cases of potential fraud.

                       RACs are required to refer any cases of potential fraud that they
                       identify; however, they must be able to identify fraud to refer it. Having
                       a RAC staff that is knowledgeable about fraud and trained to identify it
                       will increase awareness and detection of potential fraud during the
                       claims review process. However, CMS did not provide RACs in the
                       demonstration project with formal training on how to identify and refer
                       fraud, although CMS did provide the permanent RACs with a
                       presentation about fraud.

                       Therefore, we recommend that CMS:
                       Conduct followup to determine the outcomes of the two referrals made
                       during the demonstration project
                       CMS indicated that it received no provider-specific referrals from the
                       RACs during the demonstration project. However, one RAC submitted
                       copies of two provider-specific referrals that were sent to the CMS
                       Project Officer during the demonstration project. CMS should
                       determine the outcome of these referrals.
                       Implement a database system to track fraud referrals
                       We recommend that CMS develop a database system to track fraud
                       referrals it receives from RACs.
                       Require RACs to receive mandatory training on the identification and
                       referral of fraud
                       Although RACs are not responsible for identifying fraud, having more
                       training in detecting fraudulent activity could assist RACs in
                       identifying potential fraud that they might encounter during their
                       reviews. CMS should ensure that the permanent RACs receive training
                       on how to identify cases of potential fraud. Furthermore, CMS should
                       develop guidelines to assist the RACs in determining when to refer
                       cases of potential fraud for further investigation.




 O EI -03 -09 -00130   RECOVERY AUDIT CONTRACTORS’ FRAUD REFERRALS                          11
  R E C O M M E N D A T I O N S



                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS concurred with all of our recommendations. In addition, CMS
                      stated that the RACs’ primary focus is the identification and correction
                      of improper payments, not identification of potential fraud. However,
                      since fraudulent payments could potentially be identified in the RACs’
                      improper payment reviews, their reviews also serve to identify instances
                      of potential fraud. CMS also stated that if RACs identified potential
                      fraud during the demonstration, their statement of work required them
                      to forward these cases to CMS and CMS would determine if further
                      referral to the program safeguard contractors or other law enforcement
                      was warranted. We recognize that RACs are not responsible for
                      identifying potential fraud; however, we believe that there may be a
                      disincentive for RACs to refer cases of potential fraud because they do
                      not receive their contigency fees for cases determined to be fraud.

                      CMS concurred with our first recommendation and stated that it had
                      researched the two cases identified by the RAC for potential referral
                      and determined they should be referred to the Office of Inspector
                      General (OIG) for further development. CMS is in the process of
                      forwarding the two cases to OIG. OIG will review these cases and
                      determine what actions need to be taken.

                      CMS concurred with our second recommendation and stated that it is in
                      the process of developing a system to track the RAC claims review
                      process. This will include new issues approved for review, as well as
                      corrective actions taken and referrals to and from a RAC. The referrals
                      will include potential fraud referrals and will require closure so that
                      feedback can be given when necessary.

                      CMS also concurred with our third recommendation and stated that it
                      has already provided two training sessions to the RACs and is in
                      discussion with OIG and the Department of Justice on additional
                      training. The OIG training session was scheduled for January 2010.

                      The full text of CMS’s comments is provided in the Appendix.




O EI -03 -09 -00130   RECOVERY AUDIT CONTRACTORS’ FRAUD REFERRALS                         12
                        A P PEN D                    x
                        Agency Comments


    /'''''''''''''­
(           ~           DEPARTMENT OF HEALTH & HUMAN SERVICES                                  Centers for Medicare & Medicaid Services


    ,S~                                                                                        Administrator
                                                                                               Washington, DC 20201




                                        JAN 0 5 2010
                      DATE:

                      TO: 	         Daniel R, Levinson
                                    Inspector General

                      FROM: 	       Charlene Frizzera /S/
                                    Acting Administrator

                      SUBJECT: 	 Office ofInspector General (OIG) Draft Report: "Recovery Audit Contractors'
                                 Fraud Referrals" (OEl-03-09-00130)


                      Thank you for the opportunity to review and comment on the OIO's draft report, "Recovery
                      Audit Contractors' Fraud Referrals," The Centers for Medicare & Medicaid Services (CMS)
                      appreciates the time and resources the 0]0 has invested to review the Recovery Audit Contractor
                      (RAC) fraud referrals during the RAC demonstration.

                      Section 306 of the Medicare Modernization Act required CMS to establish the RAC
                      demonstration. Its purpose was to detennine if recovery auditors could identify improper
                      payments paid by the Medicare fee-for-service program. CMS awarded three contracts in 2005
                      to three unique contractors to identify claims-based Medicare fee-for-service improper payments,
                      conducting the demonstration first in California, New York, Florida and then later in
                      Massachusetts, South Carolina and Arizona, The RAC demonstration succeeded in correcting
                      more than $1 billion in improper Medicare payments. About 96 percent of these improper
                      payments were overpayments, a fraction of which was used to pay for the program and the rest
                      was returned to the Medicare Trust Fund.

                      It is important to note that the RACs were not tasked with identifying potential fraud under the
                      demonstration, nor is identifying fraud a key role as the program is launched nationally. The
                      RACs' primary focus is the identification and correction of improper payments. Since fraudulent
                      payments could potentially be identified in the RAC's improper payment reviews, their reviews
                      also serVe to identify instances of potential fraud. However, if the RACs did identify potential
                      fraud in the demonstration, their Statement of Work (SOW) required them to forward the case to
                      CMS and then CMS would determine iffurther referral to the Program Safeguard Contractors
                      (PSCs) or other law enforcement was warranted, Two potential referrals were received from the
                      RACs and CMS determined that they warranted additional follow-up and will refer them to the
                      010 for further development. Thus, as the RAC continues to perfoml the functions of its SOW,
                      potential fraud may be uncovered and referral to the appropriate entity will take place,




               OEI-03-09-00130           RECOVERY AUDIT CONTRACTORS' FRAUD REFERRALS                                                      13
     A P P            E N D I X




O EI -03 -09 -00130      RECOVERY AUDIT CONTRACTORS’ FRAUD REFERRALS   14
     A P P            E N D I X




O EI -03 -09 -00130      RECOVERY AUDIT CONTRACTORS’ FRAUD REFERRALS   15
     A C K N O W L E D G M E N T S

                      This report was prepared under the direction of Robert A. Vito, Regional
                      Inspector General for Evaluation and Inspections in the Philadelphia
                      regional office, and Linda M. Ragone, Deputy Regional Inspector
                      General.

                      Maria Schepise Johnson served as the project leader for this study.
                      Central office staff who contributed include Scott Manley.




O EI -03 -09 -00130   RECOVERY AUDIT CONTRACTORS’ FRAUD REFERRALS                           16
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
